No. 19-875

 

IN THE

SUPREME COURT OF THE UNITED STATES

 

OTO, L.L.C.,

Petitioner,
Vv.

KEN KHO; JULIE A. SU, CALIFORNIA LABOR COMMISSIONER,
Respondent.

On Petition for Writ of Certiorari to the United State Court of
Appeals for the Ninth Circuit

 

CERTIFICATE OF SERVICE

 

Undersigned counsel for Respondent, Ken Kho, a member of the Bar of
this Court, certifies that all parties required to be served have been served
with the Opposition to Petition for Writ of Certiorari, in compliance with
Supreme Court Rule 29(3), in that three copies were served on counsel of
record for Petitioner, this 29th day of April, 2020, by UPS overnight delivery,
to the following address:

Kannon K. Shanmugam

Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.

Washington, D.C. 20006

Counsel for Petitioner

Miles E. Locker

California Department of Industrial Relations
Division of Labor Standards Enforcement

455 Golden Gate Avenue, 9th Floor

San Francisco, CA 94102

Counsel for Respondent, California Department of Industrial Relations
Division of Labor Standards Enforcement

1
Janill L. Richards

Office of the State Attorney General
455 Golden Gate Avenue

San Francisco, CA 94102

Counsel for Respondent, California Department of Industrial Relations
Division of Labor Standards Enforcement

The Opposition to Petition for Writ of Certiorari has also been served

electronically to the following email address:

AVID A. ROSENFELD

kshanmugam@paulweiss.com
mlocker@dir.ca.gov
janill.richards@doj.ca.gov

April 29, 2010

148908\1076645
